ipLceoo-e.

GoudL

I:
i:

i;

fD>e fyilcliae^/ f^l far Jy Pro Se

V.
Un/’l.ed—SJjo ^e_si
i:

I

Qppj2.JlojyA.S

Qp>p^.Qjlj X

!

Qpp^aJy£^jooJ]ij.AJj^jllcd3j^A.es_B_pip_eoLs_CQOjdL
EvrJZjhe^EJ^yjZ-nAdjALtica^lA.

j3}~$-*—CQj£hn.e-j-3AJJAjrJ.~.
j3J__J3D.QrJlJJDfyA_______

JSCU3j2x3Zaca..-.... CQjarJjum-a-^-333MJ.

Cover

i;

i

s

Zb-ds^X.
Ind ex

of /Q^oyo S-flan fs

\fot urn e.

13zJ23lLJL
endfx

J

jQQlIssJl

ExEiElE

Recct/f of fDandciie - I/j% C? r j
Tssuqpce of rDanJa/e. ~ ffrt. Or,

ZuA^alt ~ JXrh.
Q-pLLOJ-G-Q-^Q.pjWi-OP)^~

C/r.

DJsAJZ.A^
!f
Cfc*

_______£x-.L.
Ex - 2 Cq )
_____ Ea^2XM
SEh^LSR-y—Ez—Z
Ex - H

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W,
Atlanta, Georgia 30303
For rules and forms visit
www.ca 11 .nscourts.gov

David J. Smith
Clerk of Court

May 13, 2020
Clerk - Northern District of Florida
U.S. District Court
30 W GOVERNMENT ST
PANAMA CITY, FL 32601
Appeal Number: 19-1237NHH
Case Style: USA v. Michael Alford
District Court Docket No: 5:16-cr-00028-RH-l
The Clerk's Office has been directed to recall the mandate. A petition for rehearing was timely
filed.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Christopher Bergquist, HH
Phone #: 404-335-6169
MDT-3 Letter to DC Recalling Mandate

EXHIBIT 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.calLuscourts.gov

David J. Smith
Clerk of Court

June 26, 2020
Clerk - Northern District of Florida
U.S. District Court
30 W GOVERNMENT ST
PANAMA CITY, FL 32601
Appeal Number: 19-12371-HH
Case Style: USA v. Michael Alford
District Court Docket No: 5:16-cr-00028-RH-l
A copy of this letter, and the judgment form if noted above, but not a copy of the court's
decision, is also being forwarded to counsel and pro se parties. A copy of the court's decision
was previously forwarded to counsel and pro se parties on the date it was issued.
The enclosed copy of the judgment is hereby issued as mandate of the court. The court's opinion
was previously provided on the date of issuance.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Lois Tunstall
Phone #: (404) 335-6191
Enclosure(s)
MDT-1 Letter Issuing Mandate

EXHIBIT 2-(a)

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 19-12371

District Court Docket No.
5:16-cr-00028-RH-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
MICHAEL RAY ALFORD,
Defendant - Appellant.

Appeal from the United States District Court for the
Northern District of Florida

JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: March 12, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

EXHIBIT 2-(b)

ISSUED AS MANDATE 06/26/2020

IN THE UNITED STATES SUPREME COURT

MS. MICHAEL ALFORD
V.
United states

THE UNITED STATES DISTRICT COURT OPINION

EXHIBIT - 3

Case 5:16-cr-00028-RH Document 158 Filed 05/30/19 Page 1 of 6
Page 1 of 6

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
PANAMA CITY DIVISION

UNITED STATES OF AMERICA
CASE NO. 5:16cr28-RH

v.
MICHAEL RAY ALFORD,
Defendant.

ORDER DENYING THE DEEMED MOTION
TO RECONSIDER THE ORDER FOR
RETURN OF SPECIFIC PROPERTY
The defendant Michael Ray Alford moved to compel the government to
return some of the property seized in connection with this case. In response, the
government agreed to return some of the property at issue, but the government said
other property might be needed in connection with collateral attacks on Mr.
Alford’s conviction. The order of April 29, 2019 directed the government to return
the property it had agreed to return. The order denied the motion for return of the
other property.

Case No. 5:16cr28-RH

Case 5:16-cr-00028-RH Document 158 Filed 05/30/19 Page 2 of 6
Page 2 of 6

After the order was issued, Mr. Alford filed a response to the government’s
response to Mr. Alford’s motion. This order treats Mr. Alford’s response as a
motion to reconsider the April 29 order.
Mr. Alford asserts that property that was not properly forfeited cannot be
retained by the government. But that is not so. Evidence that was admitted may be
retained by the court or returned to the offering party, and under the Local Rule
5.9(B), ordinarily is returned to the offering party. The party may retain the exhibit
as needed, precisely as the government proposes to do here. That is what the April
29 order authorized.
The ruling was appropriate under the law of the circuit. When a motion to
return property is filed after the close of a criminal case, the motion should be
treated as a civil action in equity. United States v. Howell, 425 F.3d 971, 974 (11th
Cir. 2005); United States v. Potes Ramirez, 260 F.3d 1310, 1314 (11th Cir. 2001).
The court has equitable jurisdiction over the claim. United States v. Martinez, 241
F.3d 1329, 1330-31 (11th Cir. 2001). The court should exercise that jurisdiction
with “caution and restraint,” seeking only to prevent “manifest injustice.”
Martinez, 241 F.3d at 1331 n.2 (quoting United States v. Eubanks, 169 F.3d 672,
674 (11th Cir. 1999)); see also United States v. Mooney, 581 F. App’x 831, 831
(11th Cir. 2014).

Case No. 5:16cr28-RH

" Case 5:16-cr-00028-RH Document 158 Filed 05/30/19 Page 3 of 6
Page 3 of 6

“Whether to exercise that jurisdiction in a given case is subject to the sound
discretion of the district court.” Richey v. Smith, 515 F.2d 1239, 1243 (5th Cir.
1975); see also Martinez, 241 F.3d at 1331 n.2. But for the court to exercise
jurisdiction, the property owner must show both a possessory interest in and “clean
hands” with respect to the property. Howell, 425 F.3d at 974; Mooney, 581 F.
App’x at 831-32 (affirming a district court’s denial of a motion for the return of a
computer that was used in a child pornography offense).
In addressing an issue of this kind, a court should consider whether the
government displayed callous disregard for the movant s constitutional rights, the
movant has an individual interest in and need for the property, the movant will be
irreparably harmed by the denial of relief, and the movant has an adequate remedy
at law. See Richey, 515 F.2d at 1243-44. More generally, “courts will determine all
the equitable considerations in order to make a fair and just decision.” Howell, 425
F.3d at 974.
The government may rebut a claim by showing a legitimate reason to keep
the property—or by showing the property has been destroyed or the government
does not have it. See, e.g., Poles Ramirez, 260 F.3d at 1314; United States v.
Garcon, 406 F. App’x 366, 369-70 (11th Cir. 2010) (citing United States v. Pierre,
484 F.3d 75, 87 (1st Cir. 2007)). “A legitimate reason to keep property is for use as
possible evidence, including when a § 2255 motion is pending and could result in a

Case No. 5:16cr28-RH

Case 5:16-cr-00028-RH Document 158 Filed 05/30/19 Page 4 of 6
Page 4 of6

new trial.” United States v. Stoune, No. 3:15cr89, 2018 WL 7020873 at *6 (M.D.
Fla. Sept. 11,2018) (report and recommendation adopted) (citing Garcon, 406 F.
App’x at 369-70).
In this case, the government agreed to return most of the property Mr.
Alford’s motion asked to have returned. In response, Mr. Alford still sought return
of just two items: a cellular telephone and address book. The record shows that the
government returned multiple address books, see ECF No. 157, but one, admitted
at trial as government exhibit 40, has not been returned.
Mr. Alford asserts the phone and address book had no connection to the
offense of conviction. He says the phone contains only contact information on
family, friends, and customers. He says the address book contains “personal and
private information, user name & pass words to my online accounts.” ECF No. 156
at 2. He says he needs this information so he can access medical records and
litigate a case against the prison for denying him hormone therapy. He says the
address book also contains additional information on business transactions,
customers, and insurance. He says he needs the phone and address book so his
family can retrieve customer contact information and arrange to get tools he left at
a job. He says he has no objection to the government keeping a copy of the data.
The record establishes a connection between the phone and address book, on
the one hand, and the offense of conviction, on the other hand. Data from the

Case No. 5:16cr28-RH

Case 5:16-cr-00028-RH Document 158 Filed 05/30/19 Page 5 of 6
Page 5 of 6

phone was admitted over objection and was used to connect Mr. Alford to the
offense. And child pornography was found on the phone. See ECF No. 135 at 1920. The address book also was admitted and used to connect Mr. Alford to the
offense.
Seizure of these items did not violate Mr. Alford’s rights. They were
properly admitted into evidence. Mr. Alford has shown himself in this case and
others to be a determined litigant. There is every reason to believe he will continue
to challenge his conviction. This is a legitimate reason for the government to retain
evidence, including the phone and address book now at issue. See, e.g., Garcon,
406 F. App’x at 370.
The denial of access to a phone or address book could cause hardship, even
after a delay as long as has occurred here, and even for a person serving a long
prison term. Even so, Mr. Alford’s representations about the dire effects of not
having access to this phone and address book are exaggerated. Passwords for
legitimate accounts can be recovered. Tools left at a customer s location can be
found. Contact information can be compiled again. Of the many hardships
resulting from conviction of a serious crime, loss of access to materials that are
introduced into evidence is not the worst.
The bottom line is this. The government may retain property that was
admitted into evidence at the suppression hearing or trial. If the government has

Case No. 5:16cr28-RH

Case 5:16-cr-00028-RH Document 158 Filed 05/30/19 Page 6 of 6
Page 6 of 6

other property that was not properly forfeited and was not admitted into evidence,
the government should return it in the manner outlined in the government’s
original response to Mr. Alford’s motion for the return of property.
For these reasons,
IT IS ORDERED:
Mr. Alford’s deemed motion to reconsider, ECF No. 156, is denied.
SO ORDERED on May 30, 2019.
s/Robert L. Hinkle
United States District Judge

Case No. 5:16cr28-RH

IN THE UNITED STATES SUPREME COURT

MS. MICHAEL ALFORD
V.
UNITED STATES

THE ELEVENTH CIRCUIT COURT OPINION

EXHIBIT - 4 .

Case: 19-12371

Date Filed: 03/12/2020

Page: 1 of 4

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12371
Non-Argument Calendar

D.C. Docket No. 5:16-cr-00028-RH-l

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MICHAEL RAY ALFORD,
Defendant-Appellee.

Appeal from the United States District Court
for the Northern District of Florida
(March 12, 2020)

Before GRANT, LUCK and BLACK, Circuit Judges.
PER CURIAM:

3 o d °V s'

Case: 19-12371

Date Filed: 03/12/2020

Page: 2 of 4

Michael Ray Alford, a federal prisoner, appeals pro se following the district
court’s denial of his post-judgment motion to return property and the denial of his
motion for reconsideration. Alford requests the return of his cellphone and address
book, which contained the usernames and passwords for various online accounts.
Alford contends he cannot access his internet accounts without these items, and so,
he was denied his constitutional right to access his medical, business, and financial
records. He asserts the inability to access these records will hinder his ability to
prepare a civil action regarding his need for medical treatment. After review, we
affirm the district court.
When a motion for the return of property is filed after the close of all
criminal proceedings, we treat the motion as a civil action in equity. United States
v. Howell, 425 F.3d 971, 974 (11th Cir. 2005). Motions to return property are
governed by Federal Rule of Criminal Procedure 41(g), which provides:
A person aggrieved by an unlawful search and seizure of property or by
the deprivation of property may move for the property’s return.... If it
grants the motion, the court must return the property to the movant, but
may impose reasonable conditions to protect access to the property and
its use in later proceedings.

1 We review questions of law dealing with a district court’s denial of a motion to return
property de novo and a district court’s factual findings dealing with such a denial for clear error.
United States v. Howell, 425 F.3d 971, 973 (11th Cir. 2005). We review “the equitable equation
of the district court’s decision” to deny the motion only for abuse of discretion. United States v.
Machado, 465 F.3d 1301, 1307 (11th Cir. 2006), overruled on other grounds by United States v.
Lopez, 562 F.3d 1309, 1311 (11th Cir. 2009).
2

Case: 19-12371

Date Filed: 03/12/2020

Page: 3 of 4

Fed. R. Crim. P. 41(g). The advisory committee explained this rule applies to
lawfully and unlawfully seized property, and once the government no longer has a
need to use the evidence, it should be returned. See id, Advisory Committee Note
to the 1989 Amendments. Because the court sits in equity, the property owner
must show a possessory interest in the seized property and “clean hands.” Howell,
425 F.3d at 974. When a property owner files a motion to return property after the
close of criminal proceedings, “‘the person from whom the property was seized is
presumed to have a right to its return, and the government must demonstrate that it
has a legitimate reason to retain the property.

United States v. Potes Ramirez,

260 F.3d 1310, 1314 (11th Cir. 2001) (quoting United States

Chambers, 192

F.3d374, 377(3dCir. 1999)).
The Government has a legitimate need to retain the evidence until Alford
exhausts his post-conviction remedies because it would need the evidence at a new
trial if his motion to vacate is successful. See United States v. Mendez, 860 F.3d
1147, 1150 (8th Cir. 2017) (“The pendency of a direct appeal or a post-conviction
proceeding might justify the government’s further retention of property as potential
evidence in a criminal case.”); United States v. Pierre, 484 F.3d 75, 87 (1st Cir.
2007) (explaining a Rule 41(g) motion is properly denied if the government’ s need
for the property as evidence continues). Even if Alford is not expressly relying on
the cellphone or address book to support the claims in his motion to vacate, if he

3

Case: 19-12371

Date Filed: 03/12/2020

Page: 4 of 4

ultimately receives a new trial, the Government will need to use those items as
evidence to connect him to the “michellecuty013,, account. Moreover, despite
Alford’s assertions of actual innocence, Alford cannot claim to have “clean hands
with respect to the cellphone and address book, both of which were connected to
an e- mail account that received child pornography.2 Furthermore, Alford is not
being deprived of any constitutional right to access his data because, as the district
cou rt pointed out, his usernames and passwords can be recovered, and, as the
Government notes, he could request access to the cellphone and address book to
write down the login information. Therefore, the court did not abuse its discretion
in denying his motion to return property. Additionally, because he did not present
new evidence, the district court also properly denied Alford’s motion to reconsider.
See Jacobs v. Tempur-Pedic Int’l, Inc., 626 F.3d 1327, 1344 (11th Cir. 2010)
(stating in the civil context, the only grounds for granting a Federal Rule of Civil
Procedure 59(e) motion to alter or amend a judgment are newly discovered
evidence or manifest errors of law or fact).
Accordingly, we affirm.
AFFIRMED.

2 Even if the district court incorrectly stated there was child pornography on the
cellphone, the cellphone was connected to an email account that received child pornography.
4

USCA11 Case: 19-12371

Date Filed: 06/18/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12371-HH
UNITED STATES OF AMERICA.
Plaintiff - Appellee,
versus
MICHAEL RAY ALFORD,
Defendant - Appellant.
Appeal from the United States District Court
for the Northern District of Florida
ON PETITIONfS) FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: GRANT, LUCK and BLACK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

